<html>
<title> - [H.A.S.C. No. 114-107] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                                     
 
                         [H.A.S.C. No. 114-107]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                    FISCAL YEAR 2017 BUDGET REQUEST

                       FOR DEPARTMENT OF DEFENSE

                             NUCLEAR FORCES

                               __________

                              HEARING HELD
                             MARCH 2, 2016

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 99-651                  WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Benedict, VADM Terry, USN, Director, Navy Strategic Systems 
  Programs.......................................................     7
Hopkins, Arthur, Acting Assistant Secretary of Defense for 
  Nuclear, Chemical, and Biological Defense Programs, U.S. 
  Department of Defense..........................................     4
Rand, Gen Robin, USAF, Commander, Air Force Global Strike Command     5
Scher, Hon. Robert, Assistant Secretary of Defense for Strategy, 
  Plans, and Capabilities, U.S. Department of Defense............     2

                                APPENDIX

Prepared Statements:

    Benedict, VADM Terry.........................................    68
    Hopkins, Arthur..............................................    40
    Rand, Gen Robin..............................................    51
    Rogers, Hon. Mike............................................    29
    Scher, Hon. Robert...........................................    31

Documents Submitted for the Record:

    Nuclear modernization spending charts........................    87
    Quotes on prioritization of nuclear deterrence...............    91

Witness Responses to Questions Asked During the Hearing:

    Mr. Coffman..................................................    95

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................   105
    Dr. Fleming..................................................   110
    Mr. Garamendi................................................   106
    Mr. Rogers...................................................    99
    
    
   FISCAL YEAR 2017 BUDGET REQUEST FOR DEPARTMENT OF DEFENSE NUCLEAR 
                                 FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Wednesday, March 2, 2016.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. This hearing of the House Armed 
Services Subcommittee on Strategic Forces will come to order. 
We welcome you to our hearing, which will be on the President's 
fiscal year 2017 budget request for the Nation's nuclear 
forces. We thank our witnesses for being here and for all the 
time that they put into preparing for these hearings. I know it 
is a taxing process, but it is very helpful to us.
    We have with us today, as witnesses, the Honorable Robert 
Scher, Assistant Secretary of Defense for Strategy, Plans, and 
Capabilities; Dr. Arthur Hopkins, who is performing the duties 
of the Assistant Secretary of Defense for Nuclear, Chemical and 
Biological Defense Programs; General Robin Rand, Commander, Air 
Force Global Strike Command; and Vice Admiral Terry Benedict, 
Director of the Navy's Strategic Systems Programs.
    This is our third hearing on the budget request for fiscal 
year 2017. At our first two hearings, we heard from your 
partners over at the Department of Energy and from senior 
leaders at STRATCOM [U.S. Strategic Command] and OSD [Office of 
the Secretary of Defense]. As my colleague and friend from 
Tennessee, Ranking Member Jim Cooper, said at both these 
hearings, we have a strong bipartisan agreement that nuclear 
deterrence is the Nation's number one priority defense mission, 
and we must recapitalize our nuclear forces.
    From the Secretary of Defense, to the service secretaries 
and chiefs, to the key leaders here in Congress, we are all in 
resounding agreement. Together, we know not only is this coming 
nuclear modernization affordable, it is the highest priority, 
and because it is our top priority, it will be robustly 
supported and funded, even if it comes at the expense of other 
capabilities.
    This is a hard-won bipartisan consensus on defense 
priorities, and in a tremendously difficult budget environment. 
At the heart of this consensus is the collective understanding 
that these programs are not optional, that they are, instead, 
the foundation of U.S. security and international stability, 
and now we have to get on with the nitty-gritty of actually 
carrying out those programs.
    The Air Force and the Navy must request the funding 
necessary to manage the program well, while Congress must do 
its part to authorize, appropriate, and oversee them. We will 
scrub your requests hard, and press you equally hard to ensure 
you are managing them for efficiency and success. Together, I 
am confident we will ensure the U.S. nuclear deterrent remains 
what Secretary Carter calls, quote, ``the bedrock of our 
security and the foundation for everything we do,'' close 
quote.
    Thank you, again, to our witnesses. I look forward to our 
discussion.
    And with that, I would like to turn it to my friend and 
colleague from Tennessee, the ranking member, Mr. Cooper, for 
any opening statement he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 29.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Mr. Chairman. I, too, would like to 
welcome the witnesses. And since you quoted me in your opening 
statement, I can think of no better words to use than the ones 
you did, and I am proud to be part of this rare, perhaps 
unique, oasis of bipartisanship in the United States Congress. 
Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    And now we will tell all the witnesses we will accept your 
written statements for the record, without objection. And we 
will recognize the witnesses to summarize their statements for 
5 minutes each.
    We will start with Secretary Scher. You are recognized for 
5 minutes.

STATEMENT OF HON. ROBERT SCHER, ASSISTANT SECRETARY OF DEFENSE 
   FOR STRATEGY, PLANS, AND CAPABILITIES, U.S. DEPARTMENT OF 
                            DEFENSE

    Mr. Scher. Thank you, Chairman Rogers, Ranking Member 
Cooper, and distinguished members of the subcommittee. Thank 
you for the opportunity to testify on the President's fiscal 
year 2017 budget request, as it relates to nuclear policy and 
strategy.
    While the administration's ultimate goal is a world without 
nuclear weapons, the President has been consistent and clear in 
his commitment to maintaining a safe, secure, and effective 
nuclear arsenal for as long as nuclear weapons exist. Effective 
deterrence remains best served by sustaining the nuclear triad 
and dual-capable aircraft [DCA], with a diverse range of 
nuclear explosive yields and delivery modes. The triad and DCA 
provide the credibility, flexibility, and survivability to meet 
and adapt to the challenges of a dynamic 21st century security 
environment without the need to mirror every potential 
adversary system-for-system and yield-for-yield. In addition to 
positioning us to address threats as they emerge, this 
approach, with its inherent flexibility, bolsters strategic 
stability by decreasing incentives for a future arms race.
    The President's nuclear sustainment and modernization plan 
is also consistent with his nonproliferation and disarmament 
objectives. It sustains a safe, secure, and effective nuclear 
deterrent, assures allies that they don't need their own 
nuclear arsenals, retains leverage for future arms control 
agreements, and reduces the numbers and types of weapons.
    The current stockpile is a dramatic departure from the Cold 
War. We have reduced from 23 nuclear warhead types in 1990 to 
12 types today, and the B61-12 bomb life extension program is 
on track to allow us to reduce further to 6 warhead types by 
the mid 2020s. The B61-12 will replace multiple existing 
variants that have different explosive yields. It will have 
lower yields than some of these variants, but will not expand 
the range of yield options available in the current stockpile. 
The B61-12 will have a measure of improved accuracy as well to 
give it the same military capabilities as the higher-yield bomb 
it replaces.
    My written testimony, as you know, it goes into greater 
detail on our modernization program and addresses the issues 
raised in your invitation letter to testify, but I was asked to 
focus, in particular, on the need for the long-range stand-off 
missile, or the LRSO, to replace the aging air-launch cruise 
missile, or ALCM, and so I will focus on that for the remainder 
of my time today.
    The administration's decision to field a modern ALCM 
replacement is essential to maintaining the ALCM's unique 
contribution to stable and effective deterrence. The current 
system is already decades beyond its planned service life and 
its viability will be challenged over the next decade by 
advanced air defenses.
    Cruise missiles provide capabilities that complement rather 
than duplicate that of a stealth bomber. Stand-off capability 
extends the effective range of our bomber fleet and complicates 
the air defense problem facing any country seeking to negate 
the air component of our deterrent. As air defense capabilities 
continue to improve and proliferate, we cannot assume our 
technological lead will forever ensure unchallenged U.S. bomber 
operations over any target in any theater.
    The ALCM provides an important contribution to the range of 
credible options available to the President for responding to 
nuclear attack. And because aircraft can be visibly deployed 
and flown during a crisis, they provide a forceful reminder to 
any adversary contemplating aggression that the risk it faces 
is real. The ability to respond proportionately to a limited 
nuclear attack strengthens our ability to deter such attacks in 
the first place. This is critical in a world where we must not 
only avoid unintended escalation, but also deter deliberate 
nuclear escalation like that envisioned in Russia's current 
strategy.
    Retaining a diverse range of nuclear deterrence options 
does not mean a lowered nuclear threshold or a higher 
likelihood of U.S. nuclear use. Indeed, the United States has 
long maintained a high threshold for nuclear use at the same 
time that we possess a diverse range of nuclear forces and 
response options.
    The LRSO will contribute to strategic stability by 
retaining a response option that does not pose a threat of a 
disarming surprise attack against Russia or China. The process 
of alerting strategic bombers is observable, and the aircraft 
and the missiles must spend hours flying towards their targets.
    Finally, the LRSO will utilize a refurbished version of the 
current ALCM warhead. The number of refurbished warheads will 
not exceed the current inventory of ALCM warheads, and is far 
lower than the approximately 1,000 missile bodies needed to 
support the deployed force and testing requirements over the 
projected lifetime of the system.
    Let me conclude by reiterating that the administration's 
nuclear sustainment and modernization plan is necessary, and it 
is affordable if prioritized appropriately by the Department, 
Congress, and the Nation. Further delays to the program will 
put the safety, security, and effectiveness of our nuclear 
forces at significant and unacceptable risk. To be clear, our 
choice is not between keeping our current forces or modernizing 
them; rather, the choice is between modernizing those forces or 
watching a slow and unaccepted degradation in our ability to 
deter.
    We look forward to this committee's continuing support of 
our collective efforts to ensure the United States is able to 
meet the security challenges we face today as well as those 
ahead. Thank you, again, for the opportunity to testify, and I 
look forward to your questions.
    [The prepared statement of Mr. Scher can be found in the 
Appendix on page 31.]
    Mr. Rogers. Thank you, Mr. Secretary.
    Dr. Hopkins, you are recognized for 5 minutes to summarize 
your statement.

  STATEMENT OF ARTHUR HOPKINS, ACTING ASSISTANT SECRETARY OF 
DEFENSE FOR NUCLEAR, CHEMICAL, AND BIOLOGICAL DEFENSE PROGRAMS, 
                   U.S. DEPARTMENT OF DEFENSE

    Dr. Hopkins. Thank you. Chairman Rogers, Ranking Member 
Cooper, and distinguished members of the subcommittee, thank 
you for this opportunity to discuss the Department's 2017 
budget request for nuclear deterrent systems.
    In addition to serving as Principal Deputy Assistant for 
Nuclear, Chemical, and Biological Defense Programs, I am the 
acting staff director for the Nuclear Weapons Council. The 
Council provides an overarching coordinated vision and strategy 
for the nuclear enterprise, including nuclear warheads and 
delivery platforms. It synchronizes the Department of Defense 
and Energy efforts to ensure a safe, secure, reliable, and 
effective stockpile.
    The Nation's nuclear forces are the Department's highest 
priority. The nuclear mission continues to be fundamental to 
our Nation's security strategy, and it ensures that we maintain 
our extended deterrence commitments to our allies.
    The Nuclear Weapons Council has developed a strategic plan 
to integrate all three components of the nuclear enterprise: 
warheads, platforms, and infrastructure. Portions of the plan 
are underway, including production of the W76-1 refurbished 
warhead and design engineering for the W88 warhead 
modernization for the Navy's submarine-launched ballistic 
missiles, as well as the B61-12 bomb life extension for both 
strategic missions and extended deterrence.
    In fiscal year 2017, the National Nuclear Security 
Administration, NNSA, will continue to deliver W76-1 warheads 
for the Navy's Trident II D-5 missiles, and will complete 
production in 2019. The W88 warhead alteration effort, also for 
the D-5 missile, is on schedule to deliver the first production 
unit in December 2019. The B61-12 bomb life extension program 
is also on schedule to deliver a first production unit in March 
of 2020. The B61-12 will enable a reduction in the total 
numbers and types of nuclear weapons in the stockpile.
    Modernizing our nuclear delivery platforms is also 
essential to nuclear deterrence. In fiscal year 2017, the 
Defense Department plans to continue to fund several delivery 
systems: first, the Ohio-class submarine replacement and its 
Trident II D-5 life-extended missile; second, sustainment of 
the Minuteman III intercontinental ballistic missile and its 
follow-on capability, the ground-based strategic deterrent; 
third, upgrades to the B-2 and the B-52H heavy bombers; fourth, 
the development of a long-range strike bomber, the B-21; and 
finally, the development of a long-range stand-off cruise 
missile, the LRSO, to replace the aging air-launched cruise 
missile. The LRSO will complement penetrating bomber capability 
by extending its effective range, and will complicate 
adversaries' air defense operations.
    With respect to the Nation's nuclear enterprise, the 
Department's fiscal year 2017 budget addresses systemic issues 
that were identified in the 2014 enterprise reviews. The budget 
request includes resources to sustain and modernize our nuclear 
forces and ensure a safe, secure, and effective nuclear 
deterrent.
    The strategy also requires investment by the Department of 
Energy in nuclear infrastructure. The Department supports 
National Nuclear Security Administration's efforts to achieve a 
responsive infrastructure for our future stockpile.
    Our fiscal year 2017 budget request is important for 
sustaining and revitalizing the Nation's nuclear deterrent. We 
ask that you support both the Department of Defense and 
Department of Energy's budget requests in this area.
    My written testimony has more detail, and I ask that it be 
included in the record of this briefing. Thank you.
    [The prepared statement of Dr. Hopkins can be found in the 
Appendix on page 40.]
    Mr. Rogers. Thank you, Dr. Hopkins.
    General Rand, you are recognized for 5 minutes to summarize 
your statement.

STATEMENT OF GEN ROBIN RAND, USAF, COMMANDER, AIR FORCE GLOBAL 
                         STRIKE COMMAND

    General Rand. Thank you. Thank you, Chairman Rogers and 
Ranking Member Cooper and distinguished members of the 
committee. And thank you for allowing me to appear before you 
today to represent the men and women of Air Force Global Strike 
Command.
    As you know, Air Force Global Strike Command was created to 
provide a focus on the stewardship and operation of two legs of 
the Nation's nuclear triad, while also accomplishing the 
conventional global strike mission. A key to our continued 
success will be our ability to modernize, sustain, and 
recapitalize our forces.
    Our mission set is always evolving and growing in order to 
ensure we continue to provide effective forces for those 
combatant commanders. Part of accomplishing this goal is to 
make sure we are rightsized with our manpower and resources, in 
balancing those efforts with ongoing modernization and 
recapitalization programs.
    Our airmen in the missile fields are accomplishing a 
critical mission for this Nation: They are operating, 
maintaining, and securing the most responsive leg of the 
nuclear triad. However, we must continue efforts to modernize 
the Minuteman III weapons system where appropriate until we 
bring the ground-based strategic deterrent online. This is an 
absolute critical national interest that will provide strategic 
deterrence and, if needed, global strike for years to come.
    Additionally, I strongly endorse replacing the UH-1N in the 
most expeditious manner possible to ensure our missile field 
remains secure.
    Our diverse bomber forces made up of the B-1, B-2, and B-52 
deter our potential adversaries and assure our allies across 
the globe. But when that is not enough, they execute a range of 
missions, including long-range global strike and close air 
support in theater. As you are aware, the B-1s have departed 
the CENTCOM [U.S. Central Command] AOR [area of responsibility] 
to help facilitate needed upgrades. These airmen have done an 
amazing job for many years, and I am proud of each and every 
one of them.
    Air Force Global Strike Command stands ready to support any 
combatant command with our other capable platforms to ensure 
there is no gap in requirements coverage. Therefore, I have 
directed our B-52 wings to be prepared to backfill the B-1s 
later this spring should we be asked to do so.
    As with our missile forces, we continue to look forward 
with our bomber forces. Last week, Secretary James revealed the 
designation for our newest bomber, the B-21. Both the B-21 and 
the long-range strike--or excuse me--stand-off weapon will 
ensure the United States can continue to hold any target at 
risk as potential adversaries continue to modernize their 
offensive and defensive capabilities.
    I am aware that one of the big reasons I am here today is 
to answer any questions on the command's progress in addressing 
the Nuclear Enterprise Review findings. We have closed over 300 
action items that complement the ongoing review efforts. We 
have reinvigorated ICBM [intercontinental ballistic missile] 
operations and are effectively making positive cultural changes 
throughout the community. We have also overhauled the B-52 
training, and streamlined other air crew programs. 
Additionally, Air Force Global Strike Command has been declared 
the lead command for nuclear command and control and 
communications, or NC3, systems throughout the Air Force. And 
to recognize the absolute criticality of these systems, NC3 has 
been declared a weapons system, which means it is tracked, 
sustained, and modernized just like the rest of the weapons 
systems in our Air Force.
    But let me be clear: We are not done. Culture change is not 
something that you can just flip a switch on. We must foster a 
culture where we aren't afraid to question how things are done. 
Innovative airmen should have the way to push their ideas to 
the top, and I will not lose sight of how far we have come, but 
also that we never stop working together.
    Mr. Chairman, I want to thank you again for the opportunity 
to appear before the committee to highlight the great airmen of 
Air Force Global Strike Command. I look forward to your 
questions.
    [The prepared statement of General Rand can be found in the 
Appendix on page 51.]
    Mr. Rogers. Thank you, General.
    Admiral Benedict, you are recognized for 5 minutes to 
summarize your statement.

STATEMENT OF VADM TERRY BENEDICT, USN, DIRECTOR, NAVY STRATEGIC 
                        SYSTEMS PROGRAMS

    Admiral Benedict. Chairman Rogers, Ranking Member Cooper, 
distinguished members of this committee, thank you for the 
opportunity to testify before the Subcommittee on Strategic 
Forces.
    My mission as the Director of Strategic Systems Programs 
[SSP] is to design, develop, produce, support, and ensure the 
safety and security of our Navy's strategic deterrent 
capability, the Trident II D-5 strategic weapons system.
    This afternoon I would like to talk about three specific 
areas: nuclear weapons safety and security, the Trident II D-5 
life extension efforts, and collaboration with the Air Force on 
weapons system commonality.
    First, my top priority is, and always will be, the safety 
and the security of the Navy's nuclear weapons. Custody and 
accountability of the nuclear assets entrusted to the Navy are 
the cornerstones of this program. Our approach to the nuclear 
weapons mission is to maintain a culture of excellence and 
self-assessment that produces the highest standards of 
performance and integrity.
    Second, the Navy is proactively taking steps to address 
aging and technology obsolescence. SSP is extending the life of 
the Trident II D-5 strategic weapons system to match the Ohio-
class submarine service life and to serve as the initial 
baseline mission payload for the Ohio replacement submarine 
platform. This is being accomplished through a life extension 
program for all of the Trident II D-5 strategic weapons sub 
systems, to include launcher navigation, fire control, guidance 
missile, and reentry. In November of 2015, the USS Kentucky 
conducted her demonstration and shakedown operation, launching 
two D-5 life extension missiles, marking 157 out of 159 
successful launches over the last 26 years. This milestone 
continues to ensure a sustainable sea-based strategic deterrent 
capability.
    Finally, I fully support strategic collaboration between 
the services. The Navy and the Air Force are both addressing 
challenges in sustaining aging strategic weapons systems. As a 
result, I remain committed to my belief that commonality 
between the ground-based strategic deterrent [GBSD] and the 
Trident II D-5 will improve affordability while reducing risks 
to ensure a safe, secure, effective, and credible nuclear 
deterrent.
    Nine joint teams have identified numerous opportunities 
where commonality has the potential to reduce not only cost, 
but also risk in the upcoming Air Force GBSD program, as well 
as the follow-on D-5 Navy effort.
    I am concerned that without proactive leadership 
involvement, we will miss the opportunity to take advantage of 
the team's effort as we transition to execution. Leadership 
commitment and focus are required to accomplish this 
undertaking and ensure its success.
    Thank you for the opportunity to testify, and at this time, 
I would be pleased to take your questions.
    [The prepared statement of Admiral Benedict can be found in 
the Appendix on page 68.]
    Mr., Rogers. Thank you, Admiral Benedict.
    I will now recognize myself for the first series of 
questions.
    General Rand, you made reference in your opening statement 
to the Minuteman III system, and we know it has got 1970s 
technology and it is degrading quickly, but you also know there 
are critics out there who are saying that we should slip the 
GBSD program to make this nuclear modernization bill a little 
bit more manageable. I don't agree with that thinking, but I am 
interested in your thoughts on the matter.
    General Rand. Sir, I agree with you. I believe that we need 
to continue to fund for the GBSD and have it meet a fully 
operational capability no later than 2030. My large reason for 
that is the Minuteman III with each year becomes more and more 
obsolete, and I am concerned that if we don't replace it, that 
the enemy gets a vote and we will not be able to provide the 
capabilities that are needed with the current system.
    Mr. Rogers. Talk about that. Why would it be cheaper to 
have a new system as opposed to just indefinitely life 
extending the Minuteman III?
    General Rand. I am not the expert, but I believe any slaps 
that you would do on the Minuteman III would be very costly and 
it won't give us the enhancements that we need that keeps us on 
the leading edge. So we spend the money, but we don't get the 
benefit of the modernized and improved capabilities.
    Mr. Rogers. Secretary Scher and Dr. Hopkins, why is the 
administration proposing to pursue the LRSO cruise missile, 
particularly if the U.S. will already have a penetrating bomber 
in the B-61 nuclear gravity bomb? Secretary Scher, you start.
    Mr. Scher. The importance of having both the ability to 
have a penetrating bomber with a gravity bomb as well as having 
LRSO be able to be--from that same platform is that it 
complicates the adversaries' planning. Also, we can't expect 
that always we will be able to circumvent any advanced air 
defense systems from any adversary, so having the ability to 
launch from stand-off ranges will be important. And further, I 
would like to present the President with multiple options 
within his air leg that don't include mandating that it must be 
a manned bomber overflying enemy territory with a gravity bomb.
    Mr. Rogers. Dr. Hopkins, do you have anything else?
    Dr. Hopkins. I would agree with those three reasons. And in 
particular, I would like to emphasize the need for 
survivability and penetration. We don't know how sophisticated 
enemy defenses are going to be 10, 20, 30 years from now, and 
having that capability is very important to us for flexibility.
    Mr. Rogers. Well, as you all know, some people are calling 
the LRSO destabilizing. Obviously, the administration doesn't 
share that viewpoint. Can you enlighten us on the 
administration's perspective?
    Mr. Scher. Absolutely, Congressman. First, this is not 
creating a new capability that is suddenly destabilizing the--
having an air-launched cruise missile is something that we have 
in the force now, it is a capability that exists, and I would 
argue it is not being seen as destabilizing up to this point. 
So one that is a survivable one, I believe, is actually--
continues the same capability and, hence, is not destabilizing.
    I would also note that using this leg of the triad, in 
fact, is one that is most easily seen by any potential 
adversary. You must generate the bomber force, you have to--it 
then has to fly, as I said, for hours. So it is a well-known 
and well-seen and observable piece of the arsenal in the triad, 
which, I think, means to me that it is not a destabilizing 
weapon unto itself. Having a weapon that is not able to 
penetrate enemy airspaces, frankly, I would argue is far more 
destabilizing and not knowing what is going to be effective and 
what isn't, so we really need to modernize this piece of the 
air triad.
    Mr. Rogers. Staying on the same subject, General Rand, what 
is your professional military opinion on why we need the LRSO?
    General Rand. Mr. Chairman, I think it is absolutely 
critical that we have an LRSO, not only for the new B-21, but 
also for our B-2 and B-52, and that is largely because of the 
ever increasing anti-access/area denial that we are facing, and 
for survivability, we need to have a stand-off capability, 
period, dot.
    Mr. Rogers. Are you and the Air Force taking additional 
requirement and putting it into program plans?
    General Rand. Absolutely, sir. It is fully funded through 
the FYDP [Future Years Defense Plan].
    Mr. Rogers. When do you expect it to be fielded?
    General Rand. Sir, the first one, from NNSA, my 
understanding from General Klotz, was delivery in 2025, and we 
will get our first one, we are tracking for 2026.
    Mr. Rogers. Great, thank you.
    Secretary Scher, we are putting a series of charts from DOD 
[Department of Defense], CBO [Congressional Budget Office], and 
the CSIS [Center for Strategic and International Studies] up on 
the screens that show the so-called bow wave of spending that 
is coming on nuclear modernization.
    I would like to introduce those charts for the record. 
Without objection, so ordered.
    [The charts referred to can be found in the Appendix 
beginning on page 87.]
    Mr. Rogers. While spending on nuclear recapitalization 
will, no doubt, increase as we head into 2020, the take-aways 
from these charts is that, one, spending on the nuclear weapons 
will remain around 7 percent of the budget, even as we peak in 
the 2020s, which is far less than historical norms; and two, 
the bow wave for modernization spending on nuclear forces is 
actually small as a fraction of the overall bow wave of 
modernization spending on conventional weapons.
    Secretary Scher, does the Obama administration believe 7 
percent of our defense budget for a decade or so is a price 
worth paying for nuclear deterrence?
    Mr. Scher. As you said, Chairman, the nuclear mission is 
the number one priority. Affordability is about prioritization. 
We certainly have sufficient amount of money in the Defense 
Department budget to ensure that we can fund the number one 
priority for the Defense Department. So I don't see this as a 
problem, in any respects.
    Having said that, there is no doubt that there is a lot of 
acquisition coming down the pike, and we must understand the 
implications of that. I would be remiss if I didn't say that 
one of the things that makes it clear that we need to have 
cooperation between the administration and the Congress to 
ensure we don't return to BCA [Budget Control Act] levels, as 
is currently looked at, because that will simply exacerbate 
these problems, but even under that scenario, you fund your 
number one priority.
    Mr. Rogers. I like the way that sounds.
    I would also like to introduce for the record a short paper 
with quotes from senior Obama administration officials and 
military leaders about why they believe nuclear deterrence is 
the number one priority mission for DOD, and why they say it 
will be funded even at the expense of other capabilities and 
programs.
    Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 91.]
    Mr. Rogers. Now I will recognize the gentleman from 
Tennessee for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    First question to both Admiral Benedict and General Rand 
has to do with commonality of the D-5 and the ground-based 
deterrent. What further progress is needed to get to where we 
need to be on these common components that could be used by 
both the Navy and the Air Force? Is there consensus on this 
between the Navy and the Air Force?
    General Rand. Sir, there is. Secretary Kendall directed the 
Air Force and the Navy to work with Draper and to continue to 
exhaust all avenues to make sure we can find every area that 
there can be commonality. We are committed to doing that, and I 
know of no roadblocks that are interfering with the progress we 
are making.
    Admiral Benedict. Sir, as I stated in my opening statement, 
we had a series of teams, joint teams this summer, Navy, Air 
Force, that identified numerous opportunities. The general 
pointed out one, which is the guidance sub system. There are 
many others. We continue to explore those opportunities.
    I will tell you that Major General Scott Jansson, who is 
the PEO [program executive officer] for GBSD, he and I have a 
VTC [video teleconference] tomorrow. We will approve that final 
report and submit that up the leadership chain to include 
Admiral Haney on that chain. And as the general said, we will 
continue to press to find ways to ensure that those 
opportunities are properly executed in the upcoming contracts.
    Mr. Cooper. Admiral Benedict, you called in your testimony 
for proactive leadership on this question, so I hope we will 
continue to see that. And I hope if there is any wrinkle or 
blip here, that you promptly notify the subcommittee, because 
we are very interested in this commonality issue.
    Admiral Benedict. Yes, sir.
    Mr. Cooper. Another question for both General Rand and 
Admiral Benedict. It is my understanding that the Air Force, 
unlike the Navy, is giving up on the Personal Reliability 
Program [PRP] and substituting instead the sort of right-to-
arms standard, which would enable more service men to be able 
to guard nuclear weapons, but I have always been a fan of the 
Personal Reliability Program, and relaxing a standard doesn't 
sound like the best way to make sure our nuclear weapons are 
safe, secure, and reliable. So can you explain why the Air 
Force is relaxing the standard?
    General Rand. Yes, sir. I would humbly submit we are not 
relaxing the standard. Out of one of the independent reviews, 
the Welsh-Harvey review, the recommendation is that the arming 
use of force and the PRP, with a few tweaks to the arming use 
of force, could be identical to a PRP. And we have actually 
taken the arming use of force, added two criteria to it that 
puts it on par with PRP, and now we have administratively 
lessened the load on, for our security forces, and only for our 
security forces. Everyone else that still is involved in the 
nuclear enterprise is on PRP.
    So the arming use of force and the PRP, the medical 
requirements, the physical fitness, the emotional requirements 
are identical.
    Mr. Cooper. You have used the word ``identical'' twice, but 
we have to change it to keep it identical. There is a certain 
irony there. There were almost 1,000 incidents in the last 
several decades of problems with securing nuclear weapons by 
the U.S. Air Force. So I hope and pray that this new standard 
will be as you suggest, and just as tough.
    General Rand. It is, sir.
    Mr. Cooper. Oh. And we have your word on that?
    General Rand. You have my word on that. And if it is not, 
and we find that it is not, we will revert back to the PRP, but 
we have run very judicious and cautious testing to make sure we 
did not rush to failure on that, and we are implementing it as 
we speak across the nuclear wings, again, only for our security 
forces, and the arming use of force has the same requirements 
for them as does PRP.
    Mr. Cooper. Well, time will tell.
    General Rand. Yes, sir.
    Mr. Cooper. Admiral Benedict, we understand that the 
success of some Department of Navy programs hinge on the 
Department's ability to develop strong partnerships and 
collaborate with State and local government agencies, such as 
local law enforcement and emergency response agencies. 
Acknowledging this need to collaborate, we also recognize that 
it must be challenging for the Navy to ensure protection of 
data that is shared with State and local agencies in an age 
when information flows so freely through email and other media 
platforms.
    Would you please describe some of the challenges that your 
program faces as it seeks to balance the need to partner and 
collaborate with State and local agencies with the need to 
protect sensitive information?
    Admiral Benedict. Yes, sir. Thank you. We have seen this as 
more of a challenge here of recent. While we believe in 
absolute transparency with the State and local governments to 
ensure that they fully understand how we are protecting and 
safeguarding the operations within our naval bases, we also 
fully appreciate our responsibility and accountability to 
protect sensitive information.
    And, so, as we have been honoring FOIA [Freedom of 
Information Act] requests and appropriately adjudicating those 
requests, what we have found is that some organizations, some 
individuals have identified an easier path through the State 
and local governments in which we have been sharing some of 
that information. So we have been working with Chairman Rogers 
and with your staff identifying some of these issues that we 
now face, and we have been getting great support in attempting 
to ensure that, again, very classified, sensitive information 
is clearly transmitted to those who should have it, but is also 
protected from other inappropriate or inadvertent uses. So we 
will continue to work with your staffs, and I think there is an 
opportunity here for us to address this very sensitive issue.
    Mr. Cooper. Well, thank you. It is very important that we 
protect such sensitive information.
    Finally, General Rand, you had mentioned in your testimony 
that the Air Force missile program has been reinvigorated but 
still more needs to be done. Are you confident that morale of 
the missileers can be restored, and do you need additional 
resources to do that? And I hope that your relaxation of the 
Personal Responsibility Program is not part of your morale 
boost.
    General Rand. No, sir. I actually, if I may, just add and 
clarify a point. Currently, we make up 12 percent of all the 
security forces in the United States Air Force are assigned to 
Air Force Global Strike, and that is a fairly large percentage, 
and of that right now 75 percent of our security forces are 
first term airmen on their first assignment. I find that a 
little unsettling, and I know now that we are using the arming 
use of force, which has the same standards of PRP, that all 
security forces now will be eligible for missile duty. That is 
a good news story in the sense that I will have a better, 
experienced force out there in my missile fields.
    As far as morale, that was not one of the areas that we 
considered at all to improve morale, was PRP. This was more of 
an efficiency and what we feel is a security and surety 
measure. There are multiple things we are doing with the 
culture. It is not a light switch I can turn on and off, but I 
am very impressed by the caliber of our young men and women who 
serve in the missile fields. Certainly, we are doing numerous 
things for our missile crew members to ensure that they have a 
clear understanding of their role, what they play, and the 
areas that we can improve to help career develop them. And I 
think we have got numerous initiatives that are underway, but I 
can't take a lieutenant and turn him or her into a lieutenant 
colonel or a colonel overnight, so this will take time for 
these to take root.
    Mr. Cooper. Thank you, Mr. Chairman. I have no more 
questions.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Colorado, Mr. Coffman, for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Rand, should we review the missile warning and NC3 
capabilities as legs of the triad--should we view? Have we been 
paying enough attention to missile warning and its enablers? 
Are you comfortable with the plan to evolve these capabilities 
and that the Department will stick with it to ensure a 
survivable capability?
    General Rand. Sir, I don't want to give you an incomplete 
answer. If I may, I will take that for the record. I believe 
that NC3 in itself is addressing numerous shortfalls in the 
communication piece of--on potentially our Nation's worst day, 
and there are many areas that this covers. Having it now 
declared a weapons system, while I don't own all those parts of 
the weapons system, having a single bellybutton that is 
accountable and reportable and has the authority to work with 
my fellow major command commanders as well as the combatant 
commanders as well as the Joint Staff, and the Office of the 
Secretary of Defense, I think will pay great dividends, but as 
particular to your missile warning, sir, I need to research 
that and get back to you and the members.
    Mr. Coffman. You might have to get back on this one too. 
What key investments do we need to make to ensure our missile 
warning system is robust? What major investments are you 
planning for fiscal year 2017 and over the next 5 years?
    General Rand. Sir, I will get back to you with that.
    [The information referred to can be found in the Appendix 
on page 95.]
    Mr. Coffman. Okay. Thank you.
    General Rand. I am sorry I don't have that information.
    Mr. Coffman. I understand. I yield back.
    Mr. Rogers. Thank you. The Chair now recognizes Mr. Ashford 
for 5 minutes.
    Mr. Ashford. I don't have any questions. Thank you.
    Mr. Rogers. Then Mr. Larsen is recognized for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Scher, are you going to be here in 2040?
    Mr. Scher. I don't plan on it.
    Mr. Larsen. I don't plan on it either. Are you going to be 
here next year?
    Mr. Scher. I serve at the pleasure of this President.
    Mr. Larsen. So how can you say with confidence beyond 
January 20 of next year that this modernization budget will 
stay whole?
    Mr. Scher. I can tell you what the 5-year plan that was 
approved by the Department and then submitted to the President 
says. So, that is the plan as of now. Certainly any plan can 
change and someone else can, but I know that we have the 
ability to fund within a balanced defense program, given the 
top line that we hope to be able to get from the Congress and 
the administration through. So I feel comfortable about those 
figures as for--but certainly, as you note, Congressman, things 
can change.
    Mr. Larsen. Yeah. And one thing that seems to have changed 
is--last year, I asked Admiral Haney this question, so it was 
in a response, a letter he had sent to the committee saying 
that our planned recapitalization activities will require close 
to 10 percent of the DOD budget for a period of time. I think 
he then testified to 7, although that was based on some 
questions we asked him as opposed to another analysis. So you 
heard the chairman talk about 7 percent.
    Is it 7? Is it 10? Is it something in between? Is it a 
multiple of?
    Mr. Scher. The difficulty in giving you a percentage of a 
budget is that I don't feel confident that I know what that 
budget top line is, so giving you a percentage of that is 
difficult.
    What I do feel confident about is that we have--what our 
program is, and--you know, so, again, I feel confident that 
what we put up is 3.3 percent of the budget for fiscal year 
2017, which is $19 billion. In the fiscal year 2017 to 2021 
plan, it is $31 billion for DOD modernization. So I feel 
comfortable and confident about those numbers as they stand, 
but in terms of percentage and where it is going, that would 
require me to be prescient on a number of different issues that 
I think are difficult to do.
    Having said that, under most assumptions, I don't see--none 
of the projections seem to have it above that 7 percent kind of 
frame, but, again, I hesitate to even mention it, in part, 
because I have no doubt that when neither you or I are here in 
2040, that someone will raise this issue of not knowing the top 
lines and having the wrong percentages.
    Mr. Larsen. If I am here in 2040, the country has other 
problems, that is for sure.
    So--but this is something I am just asking everyone about 
because of the challenges that we would face for the entire 
nuclear enterprise, and then, you know, Admiral Benedict's 
testimony doesn't address the issue, but he recognizes the 
issue that so long as everything works out, then everything 
will work out, but our history with MDAPs [major defense 
acquisition programs] is that they usually don't, that we 
usually end up over budget and things take too long and we end 
up dealing with the Department of Defense that finds ways to 
add things onto the platforms we have approved, because why not 
do it now when we have the money, and, well, it turns out we 
don't do it now because we usually don't have the money.
    So I am going to just continue to ask these questions of 
the Department on nuclear modernization, because I will go out 
on a limb and I will say it won't be 7 percent, it will be 
something much higher, because that is what history says will 
happen in the Department.
    Thanks. Appreciate it. Yield back.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentleman from Alabama, Mr. Brooks, for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman. And congratulations on 
your rather close victory last night.
    Mr. Rogers. Thank you.
    Mr. Brooks. 50 points.
    I am going to give you the questions first, give you some 
time to think about it, go through some economic background, 
then repeat the questions and ask you to answer them.
    The question is going to be, what can we in Congress do to 
get more bang for the buck out of our defense dollars, 
efficiency measures, things of that nature, or in the 
alternative, what mission scopes should we reduce? And I ask 
you to focus on your particular areas of expertise on the one 
hand, or if you have got broader things related to the Pentagon 
and what DOD does, that would be wonderful.
    And I ask that question in this context. You all may 
remember Admiral Mike Mullen, former Chairman of the Joint 
Chiefs of Staff. In 2010 and 2011, he sat at that same spot 
where you guys are now and he told us that America's greatest 
national security threat was our deficit and debt. And I think 
you have seen with sequestration and whatnot, how he was very 
prophetic in his remarks.
    Unfortunately, over the past couple of months, it appears 
that our deficit and debt situation has taken a rather dramatic 
turn for the worse. Since I was elected in 2010, every year we 
have decreased our deficits. Now the CBO is warning us that our 
deficit for this year is apt to increase by about $105 billion 
to $544 billion. Worse yet, long term, the CBO is warning us 
that our debt service costs are going to go up roughly $600 
billion over the next decade. That is per year. $600 billion, 
as you know, is about what we spend on national security. That 
money is going to have to come from some place. Additionally, 
the CBO is warning us that a decade from now, we are going to 
be looking at a $1 trillion deficit in perpetuity until such 
time as we, essentially, go bankrupt or insolvent as a nation 
with the rather severe adverse consequences that would bring to 
us.
    So we are going to have to make some hard decisions. That 
being the case, what efficiency measures do you think we ought 
to be implementing, with your insight and expertise, or in the 
alternative, what mission scopes should we start discarding or 
reducing in order to be able to meet the kind of financial 
pressures America is going to face in the future?
    Don't everybody speak at once.
    Mr. Scher. Congressman, first, I agree. And I think you 
have likely heard or seen that Secretary Carter agrees that we 
have to understand a couple of things: one, the importance of 
an overall budget, and that the Defense Department has a 
responsibility to be as careful and responsible with the funds 
that we have, because we have to prove that we are using 
effectively every dollar that is given to us by the Congress 
and by the American people; and that we must ensure that the 
other parts of the United States have strong budgets and 
support, because we are only as strong as the people that we 
can recruit in terms of the education system, in terms of 
foreign diplomacy and aid.
    So, I think there is a true understanding within the 
leadership of the Department of Defense that we will never--you 
know, we can't have a budget that is out of proportion and 
misaligned with the rest of the importance of the rest of the 
United States Government.
    Having said that, you know, we believe we use the money as 
efficiently as possible. And we go through a process every year 
of revalidating the amounts of money and how we spend it to 
ensure that we can deal with the threats that we see in the 
security environment to continue to serve our interests, and 
propagate those interests, and secure our national security and 
friends and allies.
    We believe we have put together the most efficient way of 
doing that, the most effective way of doing that within the 
context, in this case, of the budget agreement that was agreed 
to by the Congress and the President. So our role is to ensure 
that it is strategically guided in terms of dealing with the 
largest threats to the United States, and that we do that as 
efficiently as possible.
    There are lots of discussions about which mission and 
where, but I think the Secretary has been very clear how he 
sees this being guided and that the focus is on ensuring that 
we can deal with the five threats that he has articulated: 
dealing with a resurgent Russia, dealing with a rising China--
--
    Mr. Brooks. Excuse me. Secretary Scher, I have only got 30 
something seconds left.
    Mr. Scher. Right.
    Mr. Brooks. Do you have any specific recommendations for 
this Congress, actions we should take to make our security 
costs more efficient or to reduce mission scope?
    Mr. Scher. I think we have--we have done our proposal on 
the budget is what we think is the most efficient way of doing 
it. The main thing is to continue to be able to have secured 
funding and predictable funding in the outyears.
    Mr. Brooks. Thank you.
    And I see that my time has expired. Thank you, Mr. 
Chairman.
    Mr. Rogers. I thank the gentleman. I would also like to 
recognize the gentleman from California, Mr. Garamendi, for 5 
minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Some of this has been reviewed, but I would like to go back 
and try to dig a little deeper on it, and this goes to you, Mr. 
Scher. Most of the estimates that we have seen with regard to 
the entire nuclear programs really go out 5 years, but yet, the 
bow wave, an interesting word to be used, seems to occur beyond 
5 years.
    Do you have estimates of the cost beyond 5 years, and if 
so, can you share those specific estimates with us, system by 
system, and bomb by bomb?
    Mr. Scher. We have some figures and some charts that I know 
we have shared with you. I suspect they lack the level of 
precision that you are requesting.
    Mr. Garamendi. Totally. Not partial, but totally.
    Mr. Scher. We do have very clear projections for 5 years. 
As we go out, honestly, those projections, even in the greatest 
of granularity, become harder and harder to make sure that we 
are confident about those numbers, based, in large part, upon 
some of the things that Mr. Larsen has mentioned.
    So we have some estimates in the acquisition side, that I 
don't know if we have the level of granularity you are going to 
look for, but we will certainly be happy to go--I will be happy 
to go back, and I don't know if Dr. Hopkins has additional 
information, to go back and see what level of granularity we 
can provide.
    Mr. Garamendi. Are there--at some point within the next 5 
years, the granularity will become more obvious, and perhaps to 
the point where the granules are sufficient to trip over.
    Do you have milestones in mind at which point decisions 
would be made as to whether it is wise to continue any one of 
the programs?
    Mr. Scher. In terms of the commitment to the program, we 
remain committed to all of the modernization of the program. 
And I believe it is critical to ensure that we modernize each 
leg of the triad, as we have talked about. We understand that 
as we get closer, we will continue to get more granularity for 
it, but we--at no point in time is the policy of this 
administration to stop any of the modernization programs. They 
are affordable if they are prioritized.
    Mr. Garamendi. That is the most remarkable statement I have 
ever heard.
    Well, with regard to priorities, then, this committee and 
its subcommittees have gone through hearing after hearing from 
other branches of the Department, and their priorities cannot 
be met, given the current budgets of the Department. And it 
would seem to me that, therefore, the priorities would be for 
us to shift money from everything else to meet their 
priorities, and what you say is absolutely cannot change, that 
is, these priorities, puts us in an interesting circumstance, 
wouldn't you say?
    Mr. Scher. The Secretary and the President determine what 
the priorities for the Department are. The Secretary, I think, 
has been pretty clear that he views the nuclear enterprise as a 
priority, and hence, he makes the final----
    Mr. Garamendi. We are going round and round, and there is 
not much value in that. So, if I might just kind of change the 
course here.
    Down to specifics. General Rand, your new ground-based 
strategic deterrent, do you know what it is going to cost 5 
years out?
    General Rand. Five years after the FYDP? Is that the 
question, sir?
    Mr. Garamendi. That is correct.
    General Rand. I don't have the granularity that you are 
requesting at this time.
    Mr. Garamendi. Then can you tell me why the existing 
missiles cannot be used in 20 years----
    General Rand. I certainly may.
    Mr. Garamendi [continuing]. Cannot be rebuilt, cannot be 
refurbished?
    General Rand. Sure. I previously stated that I believe that 
the system will have a difficult time surviving in the active 
A2/AD [anti-access/area denial] environment that we will be 
dealing with in the 2030-and-beyond time period.
    Mr. Garamendi. So that is the warhead itself, or the 
missile itself, will not be able to achieve its destination?
    General Rand. Yes, sir. That is my contention.
    Mr. Garamendi. And the new missile could?
    General Rand. Yes, sir. That is our contention.
    Mr. Garamendi. It would seem to me, Mr. Chairman, that we 
may want to find out how that could be achieved.
    General Rand. And I do believe we will have a closed 
session to talk to you in more detail.
    Mr. Garamendi. Thank you very much.
    Mr. Rogers. Yeah. I look forward to that in the closed 
session as well. I now go to the gentleman from Louisiana, Mr. 
Fleming, for 5 minutes.
    Dr. Fleming. Thank you, Mr. Chairman.
    And, General Rand, as commander of Global Strike Command, I 
know you have a deep understanding of the significance of 
nuclear weapons, and have a vital understanding of the 
deterrent effect. And I just--parenthetically, we are so 
blessed to have you as our first four-star in command at Global 
Strike, and I hope you find that accommodations in Shreveport 
and Bossier City are satisfactory.
    But anyway, aside from all that, let's talk about something 
that maybe is less obvious but can be even more important, and 
that is the culture of deterrence. I am concerned that, through 
the day, we have an entire generation of young airmen 
performing nuclear operations that have little appreciation for 
the special significance that these weapons have. The threat of 
nuclear aggression could still persist beyond the Cold War, and 
is indeed different, and arguably more diffuse and 
unpredictable. I think most of that is more important than ever 
that we are taking steps to impart the special significance and 
understanding in today's generation of airmen.
    So my question is this: What efforts are underway right now 
in the Air Force to strengthen deterrence education, research 
for airmen performing that nuclear mission?
    General Rand. Thank you, sir. That is a great question, and 
I am glad I get to comment.
    As my good friend, Terry Benedict, mentioned, commonality, 
we talk weapons systems. One of the things we need to do is 
find commonality between the services. We are doing that. We 
have an exchange program with some of our 13N young captains 
and majors are in exchange with the Navy right now. This past 
summer we start our Schools of Advanced Nuclear Deterrent 
Studies, where we have eight majors, O-4 field rate officers, 
that are at Albuquerque, New Mexico, for a 12-month study. That 
program will continue to grow, where we will be bringing 12 to 
15, we will bring different career fields other than nuclear 
expertise, we will also be bringing in different services, and 
we will be bringing in, on the fringes, some partner nations 
that will attend.
    One of the areas that we are doing is looking at career 
broadening for our missile and bomber pilots, presently looking 
at trying to expand assignment opportunities for our missile 
crews where they can go and serve in places in Europe where we 
have the dual-capable aircraft missions, and we can get them in 
their plan.
    So, there are multiple programs, and then the last one, 
with folks that have helped us build a series of strategic 
deterrent courses that we have called nuclear deterrence 100 up 
to 400 series, which the 400 is for general officers and senior 
executive service personnel, all the way down to 100, which is 
for our sessions people and everything in between.
    Sir, I could go on for the rest of this session, if you 
would like, but I think that gives you a hint.
    Dr. Fleming. Please don't, because I have got less than 2 
minutes, but I thank you for that. It sounds like it is very 
robust, and I appreciate that there is a lot behind that. You 
know, we put language in the NDAA [National Defense 
Authorization Act] to look at that, and I think we are 
expecting a report. I assume that this is sort of a preview of 
that report?
    General Rand. Sir, and I will send you personally some of 
the initiatives, all the initiatives that we have.
    Dr. Fleming. Awesome. Okay. Very good.
    Well, in the time I have left, I am also concerned about 
the nuclear command and control, N3, and I am a little--to be 
honest with you, it is a little ambiguous as to is this spread 
over four commands as we are understanding, or is this really 
controlled in a singular sort of silo? Can you explain that for 
me?
    General Rand. Certainly. The nuclear command and control 
communications is a system of systems. And if I could, there 
are approximately 107 systems that would make up what we would 
call NC3. The Air Force is responsible for 63 of those 107 
different systems. And we have found that the best way to 
manage this is to put it in a singular major command, and that 
is now Air Force Global Strike, but I have to be very 
collaborative with my fellow major commanders.
    For example, some of these systems reside in Space Command, 
the FAB-T [Family of Advanced Beyond Line-of-Sight Terminals], 
for example, the NAOC [National Airborne Operations Center]-E4B 
resides presently in Air Combat Command, but the issue of how 
do you have responsibility without authority, a lot of the 
authority will come through the budget, and that I will have 
budgetary oversight of how dollars are spent in accord with 
these programs.
    And we are getting significant top cover and support from 
the OSD, and Mr. Halverson specifically in CIO [Chief 
Information Office]. And so I think, sir, that potentially, if 
I may, late to need, but we are actually pedaling very, very 
hard to make sure that we address the shortfalls that currently 
exist in many of our NC3 overall weapons system.
    Dr. Fleming. Right. Okay. Thank you.
    My time is up. I yield.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentleman from Montana, Mr. Zinke.
    Mr. Zinke. Thank you, Mr. Chairman. And I thank you for 
allowing me to attend the hearing today.
    I guess where I want to turn to is the helicopters. And the 
reason why I--out in Montana, I tour the facilities, and the 
airmen came up to me knowing I was a former SEAL [Sea, Air, 
Land teams], and they had some concerns about the UH-1s, the 
Hueys. And looking at the inventory of what we have out there 
and doing a little research where our staff tried to find some 
alternatives that were cost effective, we looked at Navy 
helicopters, we looked at everything, and it seems to me that 
we do need to replace the helicopters, because they are at a 
concern with alert. Admiral Haney also suggests that.
    And I guess my question to you is, in previous budgets, did 
we look at using sole source acquisition to replace these, and 
what were the options that were presented before us? Dr. 
Hopkins.
    Dr. Hopkins. I am not aware of any previous attempts to use 
sole source arrangements. However, I can say that within the 
Office of the Secretary of Defense, we have assured the Air 
Force that they have the authorities they need to do 
procurement in whatever fashion that is necessary to get the 
helicopters out in the most expedient manner possible.
    Mr. Zinke. And, General Rand, you are aware, I am sure, of 
the Secretary of Air Force's letter to Chairman Rogers that 
expressed they really can't--they failed a couple exercises in 
there, and there is a concern that they can't fulfill their 
alert duty with the UH-1s?
    General Rand. Sir, there are two requirements that we have, 
real briefly, and I won't belabor this. We have the convoy 
escort duty for when we are moving the warhead to and from the 
launch facility to base, and vice versa. The other requirement 
that the combatant requirement is to provide an emergency 
security response team.
    With mitigation efforts that we put in place with the UH-
1N, we are arming the helicopter right now, we put some 
refueling capabilities out in the missile alert facilities, we 
will be able to do the convoy effort, I think, safely and 
effectively until the replacement for the UH-1N comes on board. 
We will not meet the emergency security response with the 
present helicopter.
    And, so, there is no seam between myself and Admiral Haney 
on the need for a replacement helicopter, and there is no seam 
with the United States Air Force on the need to replace that. 
And in this current budget, we have $1 billion right now that 
is allocated to replacing that, and we are finalizing our 
acquisition strategy as we speak. And I strongly recommend to 
the Secretary and the chief that we do the most expeditious 
manner possible to get a replacement out to the missile fields.
    Mr. Zinke. Thank you, General. As a taxpayer and an 
individual who is in charge of now looking at taxpayers, and I 
look at present programs out there. As a former SEAL, I notice 
some contracts out there that I would encourage you to find, 
not only the most expeditious way, but also a way that is most 
cost effective. I can't believe that the Black Hawk, given my 
experience, cannot meet this role. So I would encourage you to 
look at what is out there, and certainly, on the Black Hawk, if 
it fills a mission, and we have contracts out there that we can 
add on top without re-inventing the wheel, I would strongly 
encourage that. And thank you, Mr. Chairman, I yield my time 
back.
    Mr. Rogers. The Chair recognizes the gentleman from 
Arizona, Mr. Franks.
    Mr. Franks. Well thank you, Mr. Chairman. Thank all of you 
for being here, and with great deference to the civilians here, 
let me express, as I always do, a special appreciation to those 
who wear the uniform. General Rand, you know you and I have 
been friends for a long time, I am grateful for men like you 
that dedicate their lives to the cause of freedom, and know 
that my children, as I have said to you many times in private, 
have a better chance of walking in the light of freedom because 
people like you that do what you do. I am grateful to all of 
you.
    General Rand. Thank you, sir.
    Mr. Franks. With that, Mr. Scher, Dr. Hopkins, and General 
Rand, why has the President, in your mind--I will start with 
you, Dr. Scher--Mr. Scher, why has the President consistently 
supported the ICBM leg of our triad? And why does that continue 
to be relevant from your perspective?
    Mr. Scher. Congressman, I think, first of all, the 
President's determination is from a broad perspective that the 
triad is important, it brings flexibility across a range, it 
brings hedges within and amongst all the different elements, so 
that, in and of itself, is an important piece.
    The ICBM leg, as certainly you know, sir, is the most 
responsive of the legs and ensures that no adversary can 
believe that they have a strike that immediately eliminates all 
of our capabilities to respond. So from a policy perspective, 
those are the key elements of why the ICBM force is so 
important.
    Mr. Franks. Well, as you might imagine, I couldn't agree 
with you more.
    Dr. Hopkins. Mr. Franks, I would just add the attribute of 
survivability; ICBM force does provide an enduring capability 
to respond. And it really does discourage attacks on the United 
States.
    Mr. Franks. General Rand.
    General Rand. Sir, they covered it--we have, as you know, 
24/7 alert right now of great young men and women that are in 
our missile silos performing, I think, a tremendous duty for 
our country.
    Mr. Franks. General Rand, I may sort of elaborate on the 
question. You know, Mr. Scher mentioned the word 
``responsive,'' and certainly, I think that is correct. But 
sometimes we hear the characterizations that our nuclear 
forces, particularly our ICBMs, are on hair trigger alert, this 
is at least the phrase that I hear a lot.
    Many are suggesting that we, quote, ``take our ICBMs off 
alert.'' Would you agree with that? And why would you think 
that might be a good or bad idea?
    General Rand. Sir, I don't agree with that. My personal 
opinion is that our enemies sleep with one eye open at night 
because of the men and women in the missile fields.
    Mr. Franks. Well, I just wanted to get that on record. 
Obviously, I agree with that.
    Admiral Benedict, what is the minimum number of Ohio-class 
replacement submarines that are required to fulfill STRATCOM's 
requirement for sea-based deterrence? The Navy, and STRATCOM, 
and DOD have been very clear on this. And I wonder if you would 
explain why less than 12 doesn't meet the requirement?
    Admiral Benedict. Sir, the number is 12, you stated that 
correctly. That is the program of record for the Ohio 
replacement program. And essentially throughout the entire life 
cycle of that platform, we have done the analysis. We need 12 
to make 10, where 10 is the requirement to support Admiral 
Haney's mission statement at STRATCOM.
    Mr. Franks. Well, let me ask you, and I don't know if we 
will get through the whole thing, so General Rand, I will start 
with you again. If there was any one thing that you believe 
that right now we should have particular focus on in terms of 
our strategic capability, would there be anything that you 
would emphasize?
    General Rand. Sir, I think that the balance of where we are 
focusing right now for me is with our bomber recapitalization 
modernization along with our modernization/the development of 
the GBSD, that those two fit like a glove, and it is important 
that we have parallel efforts on both those.
    Mr. Franks. Mr. Chairman, I am going to do something really 
rare and give back about 30, 40 seconds here, and thank all of 
you for your gallant commitment to human freedom.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
Chairman Forbes from Virginia for 5 minutes.
    Mr. Forbes. Mr. Chairman, thank you. Gentlemen, with so 
much falling on the line of Mr. Franks questions and with so 
much focus on the next generation of command and control 
infrastructure launch platforms and next generation missiles, 
how confident are we that our current fleet of the Ohio-class 
submarines and their support networks will be able to maintain 
our tactical advantage over the rest of the world until the 
Ohio replacement comes online?
    Admiral Benedict. Sir, I would say we are very comfortable. 
Although, I think you are well aware, sir, from your position 
as chairman, that those platform are aging. We are going to 
take the Ohio-class submarine to a life that we have never, 
within the Navy, experienced before. I know that within Naval 
Sea Systems commands, Naval Reactors, and the entire shipboard 
community, we are watching those platforms very, very 
carefully.
    Maintenance is a challenging experience within those 
platforms, it is growing. But I think that we have the right 
emphasis from the top down, from the CNO [Chief of Naval 
Operations], from Mr. Stackley, to ensure that we are 
appropriately funded to address that, get those through their 
42-year life history, or planned experience, and then bring the 
Ohio replacement on to the program of record to ensure that we 
can meet the 12 submarine platforms necessary to support 
Admiral Haney.
    Mr. Forbes. Is there anything Congress can or should do to 
strengthen our current nuclear triad to ensure that we are 
ready to face any global challenges in the immediate future and 
are ready in the event of any delay in future replacement 
programs?
    Admiral Benedict. Sir, I think that just recently, both Mr. 
Stackley, as well as the CNO, have testified, what they believe 
they need in order to execute the Ohio replacement program as 
cost efficiently as possible. Things such as economic order 
quantity, advance construction authorization, incremental 
funding, class procurement, things like that. They just 
recently have been up on the Hill.
    Mr. Forbes. Are those things contained in the sea-based 
deterrent fund?
    Admiral Benedict. I believe those authorizations are, sir. 
We need those types of authorizations and relief so that we can 
deliver, within the cost budgets that we have agreed to, in 
order to hold those platforms to an economic goal-order 
quantity.
    General Rand. Sir, I think the key for the Air Force is 
that we get appropriated and approval authorization for the 
current--the PB [President's budget], the budget, in fiscal 
year 2017 and through the FYDP, and then, I think, we need 
reprieve from the Budget Control Act.
    Mr. Forbes. Thank you, Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentleman from Oklahoma, Mr. Bridenstine, for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman. Secretary Scher, 
as a policy matter, what should an adversary know if it thinks 
about attacking our missile warning or nuclear command and 
control satellites or ground links?
    Mr. Scher. So certainly, the pieces of the nuclear 
enterprise that you mentioned are critical parts to our ability 
to be able to assess and respond to any adversary. That--
however, I would argue those attacks are as serious as any 
attack on any U.S. facility, any U.S. service member, any part 
of the United States. So equally, the key piece of deterrence 
is ensuring that the adversary understands that the risks that 
come from taking that action will far outweigh any advantage 
they believe they can accrue by taking such action. It doesn't 
matter what it is, but the NC3 and those pieces are critically 
important.
    Mr. Bridenstine. Is the adversary crossing a red line by 
attacking systems designed to maintain situational awareness 
during a nuclear conflict?
    Mr. Scher. The adversary should not believe that by 
attacking anything. I am, Congressman, uncomfortable with 
constraining options for red lines and others, but attacking 
those facilities are critically sensitive, and it is 
understood, and needs to be understood by the adversaries, that 
that is something that will not be allowed to remain.
    Mr. Bridenstine. Do we have a declaratory policy on this?
    Mr. Scher. We do not have a specific declaratory policy on 
that, but I think the overall declaratory policy contains 
references--that looks at the whole range of our nuclear 
enterprise.
    Mr. Bridenstine. I just received an out-brief from the 
latest Schriever war game. I was interested if you have 
received that brief, or maybe if you attended the war game 
itself?
    Mr. Scher. I did not attend and haven't actually seen the 
out-brief of that one, sir.
    Mr. Bridenstine. So the Deputy Secretary of Defense 
attended, and I would highly recommend you do as well.
    Mr. Scher. Will do so.
    Mr. Bridenstine. With that, Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman. I would like to ask one 
final question before we go to the classified section. 
Secretary Scher, the New START [Strategic Arms Reduction] 
Treaty doesn't expire until 2021. At that point there is an 
option for 5-year extension if Russia and the U.S. agree.
    Since we are 5 years away from that expiration, is there 
any reason to trigger that extension now, especially since 
Russia is cheating on the INF [Intermediate-Range Nuclear 
Forces], the Open Skies Treaty, and has never been in 
compliance with the chemical weapons or biological weapons 
conventions?
    Mr. Scher. I think there is--first of all, I will note that 
Russia, at this point, continues to abide by the New START 
Treaty. The reason we went into the New START Treaty with the 
Russians is that we saw it in our interest to do so. I would 
argue that that treaty is still working for our interests in 
terms of constraining the number of deployable weapons from 
Russia. Whether or not it is in our interest to extend it I 
think is a decision that is a policy decision that people will 
be considering, but I do think it should be looked at in 
isolation of whether or not it still serves our interest, since 
the Russians are still adhering to that treaty.
    Mr. Rogers. All right, that is debatable, but I'll let it 
go. I appreciate all the witnesses.
    We are now going to recess for 5 minutes while we move into 
classified session.
    [Whereupon, at 3:14 p.m., the subcommittee proceeded in 
closed session.]



      
=======================================================================




                            A P P E N D I X

                             March 2, 2016

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 2, 2016

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

      
    
</pre></body></html>
